        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Nuclear Safety: Safety Basis and
Quality Assurance at the Los Alamos
National Laboratory




DOE/IG-0837                           August 2010
                                 Department of Energy
                                    Washington, DC 20585

                                        August 10, 2010


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Nuclear Safety: Safety Basis and
                         Quality Assurance at the Los Alamos National Laboratory"

BACKGROUND

The Department of Energy's Los Alamos National Laboratory is a government-owned,
contractor-operated facility that is part of the National Nuclear Security Administration's
(NNSA) nuclear weapons complex. Los Alamos' primary mission is to ensure the safety,
security and reliability of the Nation's nuclear deterrent force. To meet its mission, Los Alamos
employees and subcontractors operate in close proximity to or in contact with special nuclear
materials, explosives and hazardous chemicals. NNSA's Los Alamos Site Office is responsible
for overseeing the operations of Los Alamos. Since June 1, 2006, Los Alamos National
Security, LLC, has managed and operated Los Alamos under contract with NNSA.

The Department considers safety an integral part of its mission, operating in compliance with
nuclear safety requirements of Title 10 of the Code of Federal Regulations Part 830 (10 CFR 830),
Nuclear Safety Management. The Regulation, among other things, requires contractors to
complete, and update as conditions change, Documented Safety Analyses (DSA) that identify
hazards associated with relevant work processes and to design and implement controls over such
hazards. Further, under DOE Order 414.1C, Quality Assurance, contractors are required to
develop and implement a Quality Assurance Program to prevent or detect safety or other problems
in the workplace.

The DSA and Quality Assurance requirements are critically important and are designed, when
properly implemented, to protect workers, the public and facilities from the potentially devastating
effects of nuclear-related accidents. We initiated this audit to determine whether Los Alamos had
fully implemented the required nuclear safety management regime.

RESULTS OF AUDIT

Los Alamos, one of the most storied institutions of its kind, has had a long history of concerns
related to nuclear safety management. Our review disclosed that the Laboratory continues to
have problems in fully implementing a number of critical nuclear safety management measures.
For example, Los Alamos had not:
                                                2


       Updated or fully implemented DSAs for 5 of its 14 nuclear facilities to ensure that
       hazards had been fully identified and controls implemented to mitigate nuclear hazards.
       The five DSAs were at various stages of development, approval and implementation. In
       three cases, the DSAs dated back to the mid to late 1990s, and had not been updated until
       recently despite significant changes to the facilities' processes and structures. The
       updated DSAs have not been fully implemented;

       Maintained adequate design information about safety systems to ensure that they met
       technical requirements. Los Alamos, for example, did not have design information
       needed to know at what point containers used to store plutonium, a special nuclear
       material, would over-pressurize and release their contents into the atmosphere;

       Demonstrated that operational tests of nuclear safety systems were completed to verify
       operability after modifications were made to the systems. For example, Los Alamos had
       not verified the operability of 6 of 11 safety systems after they were modified including a
       fire suppression system in Technical Area 55, a high-hazard nuclear facility;

       Demonstrated that it had validated the efficacy of corrective actions. Specifically, Los
       Alamos could not provide evidence that it had validated the efficacy of actions taken to
       resolve 11 significant safety issues, including actions to prevent the contamination of
       workers involved in decontaminating facilities; and,

       Fully resolved long-standing issues involving noncompliance with established hazard
       controls. For example, as recently as September 2009, Los Alamos determined that,
       despite corrective actions in this area, it continued to have a systemic problem with
       worker noncompliance with established procedures.

Despite repeated efforts by the Laboratory to address nuclear safety issues, past actions had not
been successful in ensuring that all nuclear safety management requirements were fully
implemented. We concluded that management had not focused sufficient attention in the past on
implementing the nuclear safety Quality Assurance Program throughout the Laboratory. Further,
officials acknowledged that they had underestimated the level of work necessary to complete
required hazard analyses to update the DSA's for some of its nuclear facilities. Additionally, Los
Alamos stated that a lack of staff with needed technical expertise to update the DSAs contributed
to problems with out-of-date DSAs.

Compounding the problem, the Los Alamos Site Office (LASO), the Federal entity charged with
administering the Los Alamos contract, had not always taken the actions necessary to ensure that
nuclear safety at the Laboratory was improved. For example, LASO had not established
performance measures requiring Los Alamos to submit updates of DSAs. Further, although
LASO had identified expectations for Los Alamos to continually improve its Quality Assurance
Program since 2008, it had not established metrics requiring the Laboratory to correct all
identified systemic quality assurance weaknesses.

We noted that Los Alamos has recently taken some positive steps designed to address
weaknesses in nuclear safety. For example, Los Alamos established a Quality Implementation
                                                3


Council (Council), in March 2010, composed of senior Laboratory managers to, among other
things, "drive" implementation of the Quality Assurance Program throughout the Laboratory and
to correct systemic weaknesses in quality assurance. Although it has not completed its work, the
Council has identified a number of actions needed to fully implement an appropriate Laboratory
quality assurance culture. This included, as of June 2010, the need to increase quality assurance
resources, increase training and use of resources to identify and correct quality assurance
problems. Los Alamos had taken a number of actions to address systemic quality assurance
weaknesses. Yet, it had not developed and approved a corrective action plan establishing
milestones and identifying the resources needed to address enhanced processes and procedures
issues identified by the Council.

Until Los Alamos corrects weaknesses in the analysis of hazards, establishes compensating
internal controls, identifies and addresses all unresolved quality assurance issues and completes
implementation of its ongoing initiatives, there is no assurance that safety risks associated with
work processes are minimized. These corrective actions are critical to maximizing the reliability
and performance of Laboratory safety systems.

During the course of our audit, both contractor and NNSA management stressed the point that
Los Alamos is safe. As evidence, they cited the fact that the Laboratory had not lost a single
work day attributable to a nuclear safety injury for over one year as of June 2010. While the
work-day performance is admirable, our audit identified outstanding nuclear safety issues that
need to be addressed to prevent nuclear safety-related accidents in the future. As such, our report
contains several recommendations designed to help improve the safety and quality assurance
programs at Los Alamos.

Finally, during the course of our audit, a Laboratory employee complained that he had suffered
retaliation because he had disclosed what he believed to be nuclear safety violations and had
cooperated with the Office of Inspector General. In response, we performed a separate review of
these allegations. We were unable to substantiate the allegations of retaliation or the specific
nuclear safety violations described by the complainant. Nonetheless, as noted in this report,
there are a number of long-standing nuclear safety issues at Los Alamos that require
management attention.

MANAGEMENT REACTION AND AUDITOR RESPONSE

NNSA management generally agreed with the report and stated that although the operations at
Los Alamos are safe, continued improvement is needed to meet expectations for NNSA's nuclear
facilities. Management further stated that work is underway to pursue those expectations and
address the concerns raised in the report. Management expressed concern that our report could
be construed to suggest that Los Alamos is operating in violation of 10 CFR 830, Nuclear Safety
Management, and pointed out that Los Alamos has self-identified and reported its deficiencies
and is actively working on closing gaps in implementation. Finally, management stated that the
recommendations were somewhat general and could be more specific to improve the
effectiveness of the report.

Management's comments were generally responsive.
                                                4


Regarding management's specific comments, our report does not state, nor did we find evidence
to confirm, that Los Alamos is operating in violation of the Code of Federal Regulations. In fact,
we note that the Department's Office of Enforcement, which is responsible for enforcing 10 CFR
830, had not issued any Notices of Violation to Los Alamos since the current contractor began
managing and operating the Laboratory. Rather, our report is intended to bring to management's
attention forward looking improvements in safety measures needed to further reduce risks.
While we modified one recommendation to provide more specificity, we believe the remaining
recommendations, as provided, give management the flexibility to determine specific corrective
actions that need to be taken to address the issues identified in the report. If management wants
to suggest another course of action or a different set of recommendations that would be more
effective in remedying the underlying concerns raised during the audit, we would welcome such
an initiative.

Management's comments and our response are summarized in the body of the report and
management's verbatim comments are attached in Appendix 3.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Manager, Los Alamos Site Office
    Director, Office of Risk Management
REPORT ON NUCLEAR SAFETY: SAFETY BASIS AND QUALITY
ASSURANCE AT THE LOS ALAMOS NATIONAL LABORATORY


TABLE OF
CONTENTS

   Nuclear Safety at Los Alamos National Laboratory

   Details of Finding ............................................................................................................. 1

   Recommendations and Comments .................................................................................... 10

   Appendices

   1. Objective, Scope, and Methodology ............................................................................ 12

   2. Related Reports ............................................................................................................ 13

   3. Management Comments .............................................................................................. 15
SAFETY BASIS AND QUALITY ASSURANCE

Nuclear Safety at     Los Alamos National Laboratory (Los Alamos) had not fully
Los Alamos National   implemented Nuclear Safety Management requirements designed
Laboratory            to ensure adequate protection from nuclear safety accidents.
                      Specifically, Los Alamos had not fully implemented Department
                      of Energy (Department) regulations requiring contractors that
                      operate nuclear facilities to identify hazards associated with work
                      processes, design and implement controls over those hazards, and
                      to update identified hazards and controls as work processes change
                      (activities collectively known as "safety basis"). Additionally, Los
                      Alamos had not fully implemented quality assurance requirements
                      to control the reliability and integrity of nuclear safety systems and
                      components.

                                           Safety Basis Requirements

                      Los Alamos had not updated or fully implemented updated
                      Documented Safety Analyses (DSA) for 5 of 14 nuclear facilities.
                      In three cases, the DSAs dated back to the mid to late 1990s, and
                      had not been updated until recently despite changes to the
                      facilities' processes and structures. The updates had not been fully
                      implemented. The DSAs describe hazards and the controls
                      established over those hazards. Contractors responsible for nuclear
                      facilities are required to submit annual DSA updates to the
                      National Nuclear Security Administration (NNSA) for approval
                      when significant changes to conditions and structures of the
                      facilities have been made. If no updates are necessary, contractors
                      are required to submit a letter to NNSA stating that there have been
                      no changes to the safety basis of the nuclear facility. NNSA
                      contractors rely on the DSAs to record identified hazards and to
                      establish hazard controls for each nuclear facility.

                      To tailor its nuclear facility DSAs to the current conditions and to
                      address a self reported noncompliance regarding DSA updates, Los
                      Alamos developed a Safety Basis Improvement Plan in November
                      2006. Los Alamos planned to have all DSA upgrades completed
                      by Fiscal Year (FY) 2007, except for the Chemistry and
                      Metallurgy Research Facility (CMR), which they planned to
                      complete by FY 2008. The plan was revised multiple times and
                      the due dates for the DSAs were extended, with projected
                      completion dates ranging from the second quarter of 2008 through
                      the second quarter of 2009. Los Alamos, however, had yet to meet
                      its revised plans for updating DSAs.

                      Los Alamos had five facilities with DSAs that were at various
                      stages of development, approval and implementation. Specifically,
                      as of June 2010, the:

Page 1                                                                  Details of Finding
                CMR and the Technical Area 55 (TA-55) Plutonium
                Facility, both high hazard facilities, had updates to their
                1998 and 1996 DSAs approved in 2010 and 2008,
                respectively; however, they had not been implemented;

                Weapons Engineering Tritium Facility DSA was approved
                in 2002, but had not been updated; and,

                Waste Storage and Disposal Facility and the Radioactive
                Liquid Waste Treatment Facility had updates to its 2003
                and 1996 DSAs, respectively, pending NNSA approval as
                of June 2010.

         Los Alamos officials pointed out that hazards and mitigating
         controls are identified during the intervening periods when DSAs
         were not updated. In such cases, Los Alamos submits to NNSA's
         Los Alamos Site Office (LASO), which is responsible for
         overseeing the Laboratory, its determination that a safety question
         has been identified that needs to be mitigated and proposes action
         to mitigate the hazards. NNSA then approves a Justification for
         Continuing Operations (JCO) which details the hazard and the
         required mitigation measures. We noted, however, that according
         to Departmental guidance in Los Alamos' contract, JCOs are
         intended to be temporary measures until an updated hazard
         analysis can be completed and hazard controls established on a
         permanent basis. In 2007, the Defense Nuclear Facilities Safety
         Board (DNFSB), which provides oversight of the Department's
         nuclear facilities, raised concerns that the Department was
         operating its nuclear facilities under JCOs for "excessive
         durations" of up to four years. According to the Department's
         Implementation Guide for Use in Addressing Unreviewed Safety
         Question Requirements (DOE G 424.1-1B), JCOs should be
         reviewed and included, as appropriate, in annual updates to the
         DSAs. In response to the draft of this report, Los Alamos stated
         that it currently did not have any JCOs that are four years old, all
         of which have expiration dates of less than one year.

         Further, the importance of performing a systemic, disciplined
         approach to performing hazard analyses such as required to
         complete a DSA was demonstrated by a recent DNFSB finding
         regarding a nuclear-related hazard at TA-55. According to an
         October 2009 DNFSB report, the "in use" hazard analysis failed to
         consider a scenario where unsecured ignition sources inside glove
         boxes may topple over, causing a fire, even if the glove boxes
         themselves do not topple over. According to the DNFSB, while
         upgrades to stabilize the seismic qualified glove box stands may


Page 2                                                     Details of Finding
         help prevent the toppling of the glove box, it does not prevent the
         toppling of ignitable material inside the glove box. The DNFSB
         report identified the need for Los Alamos to execute immediate
         and long-term actions that can reduce the risk posed by a seismic
         event at TA-55. The importance of fully identifying hazards in
         nuclear facilities was evident by the hazard controls Los Alamos
         subsequently implemented or planned to implement in response to
         the DNFSB findings. Specifically, Los Alamos removed 11 tons
         of combustible material from the facility to mitigate the immediate
         hazards and planned to add ignition source controls; install
         automatic seismic shutdown of nonessential electrical loads; use a
         new safety-class storage system and new plutonium control limits;
         and, reduce first-floor plutonium inventory.

         According to NNSA officials, the hazard analysis supporting the
         update to the TA-55 DSA identified nearly two dozen accident
         scenarios, and, with one exception, all of the scenarios were
         evaluated to be adequately mitigated. The one accident scenario
         that was not adequately mitigated was the one of most concern to
         the DNFSB regarding a seismic event and a resulting fire.
         However, NNSA officials pointed out that they judged that the
         nuclear safety advantages of approving the updated DSA in 2008,
         the first update in 12 years, and initiating nuclear safety
         improvements outweighed the disadvantages presented by the
         accident scenario given the low probability of an earthquake. As
         of June 2010, NNSA had not fully implemented hazard controls
         needed to address the DNFSB concerns, some of which LASO
         plans to secure funding for in 2012.

                          Quality Assurance Requirements

         Los Alamos had not fully implemented its quality assurance
         program to ensure adequate protection from nuclear safety
         accidents. Specifically, Los Alamos had not:

                Maintained adequate design information to ensure that
                nuclear hazards were adequately controlled;

                Demonstrated that operational tests of nuclear safety
                systems were completed to verify operability after
                modifications were made;
                Demonstrated that it had validated the efficacy of
                corrective actions; and,

                Fully resolved long-standing issues involving employees
                not performing work in accordance with established hazard
                controls.

Page 3                                                   Details of Finding
               Safety System Design and Configuration Management

         Contrary to Department requirements that all nuclear activities
         have adequate design information, Los Alamos did not always
         have sufficient design information available to ensure that
         equipment met technical requirements. Specifically, Los Alamos
         had insufficient design information on about 40 "vault water bath"
         containers at TA-55 used to store plutonium, a special nuclear
         material. Los Alamos relied on the vault water bath system to
         keep the containers from over pressurizing. The containers are
         used to dissipate heat generated by the decay of plutonium.
         However, the DNFSB determined that design information did not
         sufficiently describe the temperature and pressure parameters of
         the containers. As a result of insufficient design information, Los
         Alamos did not know the point at which any of the containers
         would over pressurize and release their contents into the
         atmosphere. An April 2009 DNFSB report stated that failure of
         one or more containers and the unmitigated offsite consequences
         could result in what the Board termed a "high consequence
         accident." LASO officials told us that the risk posed by the
         containers and vaults was mitigated by multi-stage air filtration
         systems that exist between the vault and the public, and that the
         containers have been vented to improve the safety posture.

         Los Alamos also operated TA-55 without knowing the exact
         configuration of its safety systems. Los Alamos relied on Design
         Change Packages (DCPs) to control and document temporary and
         permanent configuration changes to structures, systems, and
         components. According to TA-55's Configuration Management
         Division's information, 29 of the 351 DCPs that Los Alamos
         initiated for critical safety systems, structures, and components
         since 1995 were not available for review. Further, according to
         Configuration Management Division officials, 16 DCPs were lost,
         and the remaining 13 did not have any records. Furthermore,
         additional DCPs were reported as checked out to individuals
         throughout TA-55 but Los Alamos had not confirmed whether
         these DCPs still existed. To its credit, Los Alamos acknowledged
         that a DCP control problem exists, and has drafted a plan to
         address the issues for legacy DCPs; however, the plan had not been
         approved as of the end of our audit work. Until all DCPs are
         accounted for and testing and validation of modifications are made,
         Los Alamos will continue to operate high-hazard, nuclear facilities
         at TA-55 without knowing the exact configuration of its safety
         systems. Recognizing that a valid legacy configuration issue
         exists, NNSA officials indicated that the DSAs establish off-setting
         controls that include surveillances and processes on safety systems
         to ensure operability.

Page 4                                                   Details of Finding
         Finally, Los Alamos officials pointed out that there are
         approximately 1,700 engineering drawings that the Laboratory has
         identified as out-of-date and a priority for update. Los Alamos had
         a performance expectation for FY 2010 that required it to update
         200 engineering drawings; however, the expectation was reduced
         to 100 drawings because of the need to respond to the previously
         discussed DNFSB finding about inadequate design information for
         the TA-55 vault water bath containers. Until Los Alamos can
         update its engineering drawings, it has instituted a procedure that
         requires engineers to "walkdown" systems or structures before any
         work is performed on systems and structures that have outdated
         engineering drawings. While "walkdowns" mitigate risks
         associated with outdated engineering drawings, Los Alamos
         officials pointed out that they recognize that it is inefficient and
         that the drawings need to be updated.

                                  Operational Tests

         Although its Quality Assurance Plan requires tests to ensure the
         functionality of safety systems, we found that Los Alamos had not
         always performed or documented the tests after modifications were
         made to the facility for 6 of the 11 DCPs we reviewed. In
         particular, Los Alamos did not always know whether it had
         conducted operational tests of the safety systems to verify their
         conformance to specified requirements. Los Alamos officials did
         not know whether tests were conducted because many of the
         records supporting test results were nonexistent. Without
         documentation of tests and their results, Los Alamos could not
         demonstrate that modifications to safety systems met the
         requirements contained in the DCPs. For example, one DCP that
         we reviewed related to modifications performed in FY 2006 to a
         fire suppression system in TA-55. Los Alamos, however, did not
         have documentation to show that it had performed tests after the
         modification to verify that the system performed as required.

         Although not fully implemented, and as such not fully effective,
         we found that Los Alamos has initiated a number of actions to
         improve its confidence that safety systems function as intended
         and satisfy their specified function. For example, Los Alamos
         initiated its Vital Safety System Assessment Program in 2007 to
         assess the functionality of its safety systems and established
         procedures to determine the operability of systems that are found
         to have degraded or not conform with safety basis requirements.
         However, these initiatives will take time to fully implement.
         LASO pointed out that Los Alamos completed 55 of 56 of the
         Vital Safety System Assessments expected in 2009; however, 6 of
         the 26 that LASO sampled were noncompliant with guiding

Page 5                                                   Details of Finding
         principles for performing the assessments such as not including
         required operability determinations. In addition, we noted that the
         procedures used for performing the assessments between 2007 and
         2009 did not include all quality assurance requirements, such as
         determining whether safety systems components were procured in
         accordance with specifications. Los Alamos revised its procedures
         for performing the assessments in April 2009 and brought them
         more in line with quality assurance requirements. According to
         Los Alamos, 32 safety systems have not been assessed under the
         revised procedures.

                                 Corrective Actions

          Los Alamos had not demonstrated the validation of the efficacy of
         corrective actions designed to resolve significant safety
         deficiencies. Specifically, neither Los Alamos nor LASO could
         confirm that any of the nuclear safety issues associated with
         Preliminary Notices of Violations (PNOV) issued by the
         Department's Office of Price-Anderson Enforcement (Office) had
         been effectively resolved. The Office conducts site investigations
         when there have been repetitive, significant safety issues reported
         in its Noncompliance Tracking System (NTS). The Office issues
         PNOVs when it believes that there has been a safety rule violation
         based upon the findings of such investigations. Specifically, we
         reviewed 11 NTS reports associated with 3 PNOVs that Los
         Alamos had reported as corrected and closed. Los Alamos files,
         however, contained no evidence to support that effectiveness
         reviews were performed for any of the reported non-compliances
         that were closed. For example, Los Alamos could not provide
         evidence that it had validated the efficacy of actions taken to
         prevent the contamination of workers decontaminating facilities.
         In another instance, Los Alamos could not provide evidence that it
         had validated the efficacy of actions taken to ensure that degraded
         TA-55 nuclear materials containers were in seismically qualified
         storage racks. According to Los Alamos, procedures are now in
         place and in use for performing effectiveness evaluations.
         LASO pointed out, and we confirmed, that the Laboratory had not
         received any PNOVs related to nuclear safety since the current
         contractor assumed responsibility for managing the Laboratory in
         June 2006. We reviewed the supporting documentation, however,
         for 3 of the 11 NTS reports associated with 2 of the PNOVs that
         were closed by the current contractor and found that there was no
         evidence that it had validated the effectiveness of the corrective
         actions. This is in spite of the fact that the Department's quality
         assurance management systems guide recommends that a
         determination be made about the effectiveness of corrective actions
         as part of a sound quality assurance program. Los Alamos

Page 6                                                   Details of Finding
         indicated that the PNOVs and NTS Report closures referenced
         above occurred prior to the development of the current
         effectiveness evaluation process. Los Alamos' implementation of
         its effectiveness evaluation process is necessary to ensure the
         efficacy of future corrective actions.

                                  Work Processes

         Los Alamos had not fully resolved long-standing issues involving
         noncompliance with established hazard controls. For example, as
         recently as September 2009, Los Alamos determined that, despite
         corrective actions in this area, it continued to have a systemic
         problem with worker noncompliance with established procedures.
         Historically, Los Alamos has experienced problems with
         noncompliance with established work processes. In 2008, NNSA
         issued a special report to Los Alamos stating that nuclear safety
         performance at Los Alamos over the past several years was
         inadequate. Specifically, NNSA noted that safety related incidents
         resulted because required hazard controls were either ineffective or
         not implemented. The Department deferred enforcement action to
         enable Los Alamos to focus management attention on identifying
         the broad deficiencies which led to these events. Our review and
         Los Alamos' recent self assessments, however, indicate that worker
         compliance with established hazard controls continue to be a
         systemic problem within the Laboratory. For example, our review
         disclosed the following recent incidents related to noncompliance
         with established work processes in nuclear and radiological
         facilities:

                A subcontractor employee failed to use established
                procedures intended to prevent accidents during
                maintenance operations while working on a ventilation
                system in TA-55 in November 2009. Los Alamos' root
                cause analysis determined that the subcontractor had not
                been provided with the current standard operating
                procedures;

                Los Alamos accepted nonconforming parts for a fire alarm
                control panel at the CMR in August 2009. Los Alamos'
                root cause analysis determined that, among other things,
                workers had rushed the procurement and had not ensured
                the vendor would provide parts meeting specifications and
                that workers had also not performed required inspections
                prior to accepting the parts; and,

                Three employees were contaminated while performing
                decontamination at the Los Alamos Neutron Science

Page 7                                                   Details of Finding
                           Center, a radiological facility, in March 2010. Los Alamos'
                           root cause analysis determined that employees were not
                           properly surveyed after contamination was detected on
                           them that resulted in contamination being released outside
                           the radiological control area. Los Alamos also determined
                           that the employees had not worn the proper clothing when
                           working in the radiological area.

                    Although Los Alamos implemented corrective actions to address
                    the specific causes of each of the above individual examples, a
                    September 2009 self assessment by the Laboratory showed that
                    worker noncompliance with established work processes was a
                    systemic problem. Specifically, the self assessment found, among
                    other things, that a systemic weakness significantly adverse to
                    quality existed in ensuring that work processes were performed in
                    accordance with established procedures. Although not fully
                    developed, Los Alamos initiated actions in 2010 to promote quality
                    assurance implementation throughout the Laboratory. While these
                    actions hold promise for improved implementation of the Quality
                    Assurance Program, Los Alamos and LASO will need to maintain
                    sufficient management attention on quality assurance issues given
                    that past actions have not been fully successful in correcting
                    weaknesses in the past.

Safety Basis        Despite repeated efforts by Los Alamos to address nuclear safety
Requirement and     issues, past actions have not been successful in ensuring that the
Quality Assurance   Laboratory fully implemented nuclear safety management
Implementation      requirements. We concluded that management had not focused
                    sufficient attention in the past on implementing the nuclear safety
                    Quality Assurance Program throughout the Laboratory. Further,
                    Los Alamos told us that it had underestimated the level of work
                    necessary to complete required hazard analyses to update the
                    DSA's for some of its nuclear facilities. Additionally, Los Alamos
                    stated that it lacked employees with the technical expertise needed
                    to update the DSAs. Exacerbating these problems, LASO had not
                    always taken the actions necessary to improve Los Alamos' nuclear
                    safety. Specifically, LASO had not established specific
                    performance metrics for Los Alamos to submit and implement
                    DSA updates. LASO had established expectations for Los Alamos
                    to continually improve its Quality Assurance Program since 2008;
                    however, it had not established measures for the Laboratory to
                    correct all systemic quality assurance weaknesses.

                    As discussed above, Los Alamos initiated actions to "drive" quality
                    assurance implementation throughout the Laboratory. Specifically,
                    Los Alamos established a Quality Assurance Implementation
                    Council (Council) composed of senior Laboratory managers from

Page 8                                                             Details of Finding
                  each of its major operations organizations to focus on quality
                  assurance issues in March 2010. Among other things, the Council
                  will focus on correcting issues raised by the 2009 self assessment
                  which identified systemic weaknesses in 6 of 12 quality assurance
                  areas.

                  Although it had not completed its work, the Council had identified
                  a number of actions needed to fully implement quality assurance
                  throughout the Laboratory. Specifically, in June 2010, the Council
                  identified the need to increase quality assurance resources, training
                  and use of trending resources to identify and correct quality
                  assurance problems. While Los Alamos had taken a number of
                  actions including developing new procedures for records
                  management, it has not developed and approved a corrective action
                  plan establishing milestones and resources to address specific areas
                  of needed improvement identified by the Council.

Safety Impacts    Although quality assurance requirements have existed since 1986,
                  Los Alamos had, in effect, operated its nuclear facilities for more
                  than 15 years without a fully implemented Quality Assurance
                  Program. Los Alamos management pointed out that, since
                  assuming responsibility for managing and operating the
                  Laboratory, it had created and implemented a full suite of safety
                  management programs. However, as previously discussed, Los
                  Alamos also recognizes that it continues to have systemic
                  problems associated with fully implementing nuclear safety
                  management programs. Until Los Alamos fully updates hazards
                  analyses, and fully implements hazard controls and its quality
                  assurance program, it cannot be assured that safety risks associated
                  with work processes are minimized while maximizing the
                  reliability and performance of its safety systems. Continuing to
                  operate facilities and perform programmatic work at facilities that
                  do not meet quality assurance and safety basis standards results in
                  increased exposure to safety risks.

RECOMMENDATIONS   To help ensure that Los Alamos National Laboratory is operating
                  safely, we recommend that the Administrator, NNSA, take action
                  to ensure that Los Alamos:

                     1. Develops a corrective action plan establishing milestones
                        and dedicating resources needed to implement quality
                        assurance improvements identified by the Quality
                        Implementation Council;

                     2. Develops the technical resources to perform the hazard
                        analyses needed to support the updates of DSAs;



Page 9                                         Recommendations and Comments
                      3. Verifies that applicable quality assurance requirements are
                         included in assessments of vital safety systems and takes
                         action to include requirements where voids in Los Alamos'
                         instructions are found to exist; and,

                      4. Validates the effectiveness of corrective actions for
                         significant weaknesses as recommended in the
                         Department's quality assurance management systems guide.

                   We further recommend that the Manager, Los Alamos Site Office,
                   develop specific performance metrics for Los Alamos to:

                              a. Update and implement updated DSAs; and,

                              b. Correct systemic weaknesses identified in the Los
                                 Alamos self assessments.

MANAGEMENT AND     NNSA management generally agreed with the report and stated
AUDITOR COMMENTS   that although the operations at Los Alamos are safe; continued
                   improvement is needed to meet expectations for NNSA's nuclear
                   facilities. Management further stated that work is underway to
                   pursue those expectations and address the concerns raised in the
                   report. Management expressed concern that our report implied that
                   Los Alamos is operating in violation of 10 CFR 830, Nuclear
                   Safety Management, and pointed out that the Laboratory had self-
                   identified and reported its deficiencies and is actively working on
                   closing gaps in implementation. Finally, management stated that
                   the recommendations were somewhat general and could be more
                   specific to improve the effectiveness of the report.

                   Management's comments were generally responsive. We
                   appreciate management's acknowledgement that continued
                   improvement is needed and that corrective actions are underway.
                   Regarding management's specific comments, our report does not
                   state that Los Alamos is operating in violation of the Code of
                   Federal Regulations. In fact, we note that the Department's Office
                   of Enforcement, which is responsible for enforcing 10 CFR 830,
                   had not issued any Notices of Violation to Los Alamos since the
                   current contractor began managing and operating the Laboratory.
                   Rather, our report is intended to bring to management's attention
                   improvements in safety measures needed to further reduce risks.
                   While we modified one recommendation to provide more
                   specificity, we believe the remaining recommendations, as written,
                   give management the flexibility to determine specific corrective
                   actions that need to be taken to address the issues identified in the
                   report. Management's verbatim comments are attached in
                   Appendix 3.


Page 10                                         Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of our audit was to determine whether Los Alamos
              National Laboratory (Los Alamos) has fully implemented the
              required nuclear safety management regime.

SCOPE         The audit was performed between December 2008 and July 2010
              at Los Alamos and the Los Alamos Site Office (LASO), located in
              Los Alamos, New Mexico.

METHODOLOGY   To accomplish the audit objective, we:

                     Reviewed applicable Laws, Department of Energy
                     (Department) orders, other Departmental guidance, and the
                     Los Alamos contract;

                     Analyzed prior reports from the Office of Inspector
                     General, the Defense Nuclear Facilities Safety Board,
                     Government Accountability Office (GAO), LASO, and Los
                     Alamos;

                     Reviewed and analyzed internal Los Alamos guidance;

                     Interviewed key Department, National Nuclear Security
                     Administration, and contractor personnel; and,

                     Reviewed noncompliances reported in Los Alamos'
                     management tracking system and the Department's
                     Noncompliance Tracking System.

              We conducted this performance audit in accordance with generally
              accepted government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objective. We believe that the
              evidence obtained provides a reasonable basis for findings and
              conclusions based on our audit objective. The audit included tests
              of controls and compliance with laws and regulations necessary to
              satisfy the audit objective. Because our review was limited, it
              would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We
              assessed performance measures established under the Government
              Performance and Results Act of 1993 and found that Los Alamos
              did not have specific performance measures to fully implement
              quality assurance and safety basis requirements. Finally, we did
              not rely on computer-processed data to satisfy our audit objective.
              Management waived an exit conference.



Page 11                                   Objective, Scope, and Methodology
Appendix 2

                                   RELATED REPORTS

Office of Inspector General Reports

   Procurement of Safety-Class/Safety-Significant Items at the Savannah River Site (DOE/IG-
   0814, April 2009). The report noted that the Department of Energy (Department) had
   procured and installed safety-class and safety-significant structures, systems, and
   components that did not meet NQA-1 quality standards. Based on examination of relevant
   internal controls and procurement practices, the Office of Inspector General (OIG) concluded
   that these failures were attributable to inadequate attention to quality assurance at Savannah
   River. Basically, Department controls were not adequate to prevent and/or detect quality
   assurance problems. The procurement and installation of these nonconforming components
   resulted in cost increases. Although the Department and Savannah River took positive steps
   to remedy the problems, weaknesses remained and the OIG made several recommendations
   to strengthen quality assurance at Savannah River.

   Implementation of Integrated Safety Management at Lawrence Livermore National
   Laboratory (DOE/IG-0797, July 2008). The audit disclosed that Lawrence Livermore
   National Laboratory (Livermore) had not fully implemented an Integrated Safety
   Management (ISM) system to improve its safe conduct of work. Through examination of
   safety incidents, the OIG found that Livermore had not always developed and implemented
   controls to eliminate hazards; performed work within defined controls; and, provided
   feedback to managers about identified hazards or aggressively pursued continuous
   improvement in safety. Specifically, Livermore did not always analyze safety issues to
   determine their extent of condition and root causes. Furthermore, the National Nuclear
   Security Administration's (NNSA) Livermore Site Office (LSO) did not ensure that
   performance measures associated with safety encouraged improvement in Livermore's
   implementation of ISM. While LSO and Livermore took some positive steps to resolve the
   reported issues, the report included additional actions to improve safety at Livermore.

Other Reports

   Actions Needed to Determine the Effectiveness of Safety Improvement Efforts at NNSA's
   Weapons Laboratories (GAO-08-73, October 2007). The report noted that the nuclear
   weapons laboratories have experienced persistent safety problems including accidents and
   violations of nuclear safety rules. Examples include worker exposure to radiation, inhalation
   of toxic vapors, and electrical shocks. No deaths have occurred, but many of the accidents
   caused serious harm to workers or damage to facilities. Long-standing management
   weaknesses including relatively lax laboratory attitudes toward safety procedures, laboratory
   inadequacies in identifying and addressing safety problems with appropriate corrective
   actions, and inadequate oversight by NNSA site offices. The Government Accountability
   Office made several recommendations to strengthen management and oversight of laboratory
   safety.




Page 12                                                                        Related Reports
Appendix 2 (continued)

  Design, Functionality, and Maintenance of Safety Systems at Los Alamos National
  Laboratory, (Defense Nuclear Facilities Safety Board [DNFSB], October 16, 2007). The
  DNFSB reported that it has become increasingly concerned in the overall lack of progress
  with respect to safety improvements at the Los Alamos National Laboratory. A number of
  significant and systemic deficiencies exist at Los Alamos related to assuring the design,
  functionality, and maintenance of safety systems. The deficiencies included: (1) incomplete
  or inadequate descriptions of system safety functions, (2) weak or missing fundamental
  design information and calculations, (3) failure to verify credited safety functions through
  periodic surveillance and testing, (4) failure to implement appropriate maintenance activities
  to ensure that safety systems can continue to perform their credited function, (5) lack of
  adequate normal and abnormal operating procedures to govern the operation of safety
  systems, (6) lack of formal setpoint calculations for critical system operating parameters, and
  (7) outdated and, in some cases, inadequate safety bases. The report stated that development
  and implementation of a formal, systematic approach to ensuring the functionality and
  operability of safety systems that includes robust design calculations, relevant, system
  testing, fundamental maintenance practices, and adequate system operating procedures is an
  essential element of sustainable safe operations. Los Alamos, however, relied more on
  expert judgment, operational awareness, and informal guidance to ensure the operability of
  safety systems. Safety Basis issues – None of the facilities assessed was operating under a
  safety bases that fully complied with 10 CFR 830. The Lab's Safety Basis Improvement Plan
  includes updates for WETF and PF-4 by the end of FY 2007 and the following year for
  CMR. The contractor (LANS) and LASO are not providing the level of oversight required to
  identify the types of issues reflected in the DNFSB report. The widespread nature of these
  deficiencies warrants immediate attention. Consequently, additional focused actions of an
  immediate nature are necessary to identify and resolve these issues and to improve
  confidence in credited safety systems.

  Inspection of ES&H Programs at Los Alamos National Laboratory, (Department of Energy,
  Office of Health, Safety and Security, January 2008). The report noted that, with few
  exceptions, NNSA and LASO have made little progress in addressing the longstanding
  deficiencies in their oversight programs. The same problems identified in 2005 by
  Independent Oversight and other inspections are still evident. The deficiencies in NNSA and
  LASO oversight are contributing to the continued weaknesses in Los Alamos ES&H
  programs. Los Alamos has made progress in a number of areas, but deficiencies are still
  evident in many aspects of Los Alamos ES&H and safety management programs and
  processes. The identified deficiencies in essential safety system functionality demonstrate
  that nuclear safety at Los Alamos is still a concern that warrants increased management
  attention and timely additional actions.




Page 13                                                                       Related Reports
Appendix 3




Page 14      Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
                                                                    IG Report No. DOE/IG-0837

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
